"’l

FILED

NOT FOR PUBLICATION

MAR 13 2020

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No.

U.S. COURT OF APPEALS

18-50378

D.C.No.
2:17-cr-00048-MWF-2

v.
ELVIS HENRY ID ADA,

MEMORANDUM*

Defendant-Appellant.
Appeal from the United States District Court
for the Central District of California
Michael W. Fitzgerald^ District Judge, Presiding
Submitted March 3, 2020**
Pasadena, California
Before: HURWITZ and FRIEDLAND, Circuit Judges, and KORMAN,
Judge.

District

Elvis Idada pled guilty to one count of wire fraud in violation of 18 U.S.C.
§ 1343. On appeal, he argues that: (1) the district Court’s amended judgment

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
The Honorable Edward R. Korman, United States District Judge for
the Eastern District of New York, sitting by designation.
LEGAL M.-

“vi

\

l

imposing restitution was untimely, and (2) his guilty plea was not knowing and
voluntary. We have jurisdiction under 28 U.S.C. § 1291. We dismiss in part and
affirm in part.
1.

Idada filed a notice of appeal from the initial judgment of conviction,

which deferred the determination of the amount of restitution. He failed, however,
to appeal from the amended judgment imposing restitution. The relevant facts here
are identical to those of Manriquev. United States, 137 S. Ct. 1266 (2017). Manrique
“filed only one notice of appeal, which preceded by many months the sentence and
judgment imposing restitution.” Id. at 1271. Thus, “[h]is notice of appeal could not
have been ‘for review’ of the restitution order, § 3742(a), and it was not filed within
'•

*•

'•

i.

i.

the timeframe allowed by Rule 4. He thus failed to properly appeal... the amended
judgment imposing restitution.” Id, The Supreme Court held that, under these
circumstances, we have a “mandatory” duty to dismiss the appeal challenging the
restitution order. Id. at 1272; see also Nutraceutical Corp. v. Lambert, 139 S. Ct.
710,714(2019)
2.

Idada argues that his guilty plea was not knowing and voluntary,

because the terms of a protective order prevented him from adequately reviewing
and analyzing discovery material in his jail cell, and his defense team could not
properly investigate arid prepare the case. But the parties stipulated to the protective
order, and Idada personally signed the stipulation. Idada also never objected to the
LEOAiu MAIL
2

SUE*?'* PBiVtl

r ■,

.
l,v
order below, or even asked to have the stipulation modified when the effects of the
restrictions presumably became apparent to him. A defendant who is aware of any
alleged prosecutorial misconduct at the time he makes a plea is “equipped ... to
voluntarily choose between accepting a plea and continuing to defend against the
charges levied against him.” United States v. Seng Chen Yong, 926 F.3d 582, 595
(9th Cir. 2019) (internal quotation marks omitted). Because Idada was aware of the
effect of the protective order at the time he pled guilty, any defects in the order could
not have “tainted his guilty plea or otherwise improperly induced it.” Id.
DISMISSED in part and AFFIRMED in part.

3

